November 19, 2010

LAURA M. HUBRICH
SENIOR PLANT MANAGER (A), SALT LAKE CITY PROCESSING AND
 DISTRIBUTION CENTER

SUBJECT: Audit Report – Internal Controls over Powered Industrial Vehicles at the Salt
         Lake City Processing and Distribution Center and Salt Lake City Auxiliary
         Service Facility (Report Number NO-AR-11- 003)

This report presents the results of our review of internal controls over powered industrial
vehicles (PIVs) at the Salt Lake City Processing and Distribution Center (P&DC) and the
Salt Lake City Auxiliary Service Facility (ASF) (Project Number 10XG047NO000). This
was a self-initiated audit. Our objective was to determine whether internal controls over
PIVs were in place at the Salt Lake City P&DC and ASF. See Appendix A for additional
information about this audit.

PIVs include tow motors, fork trucks, tractors, platform lift trucks, motorized hand trucks,
and other specialized industrial trucks powered by electric motors or internal
combustion engines. Postal Service managers are required to provide a safe and
healthful workplace free of recognized hazards and to follow Occupational Safety and
Health Administration (OSHA) standards.

Conclusion

The Salt Lake City P&DC and ASF were able to effectively manage workhours in tow
and forklift operations.1 However, these facilities did not always manage internal
controls over PIV safety and maintenance. Specifically, management did not ensure:

       Certification of powered equipment operators.2
       Completion of OSHA checklists by PIV drivers.
       Timely completion of preventive maintenance or repairs to vehicles.
       Compliance with district procedures on the use of portable electronic devices.

This occurred because some managers were new in their positions and not aware of
required PIV internal controls. See Appendix B for our detailed analysis of this topic.
Consequently, the Postal Service         receiving approximately $210,000
     . See Appendix C for details on the potential impact of this issue.

1
  In Fiscal Year (FY) 2009, management assigned the Salt Lake City ASF a new finance number. For the purpose of
this report, we have combined the Salt Lake City P&DC and ASF workhours and volumes for FY 2009.
2
  In November 2008, OSHA cited the Salt Lake City P&DC for allowing uncertified drivers to operate a PIV.
Internal Controls over Powered Industrial                                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility



Even though management took corrective action and implemented procedures to
ensure PIV drivers completed checklists and certifications, and that managers were
aware of their responsibilities over PIV internal controls, continuous monitoring is
necessary to ensure the safety of employees. At our exit conference on September 28,
2010, Salt Lake City P&DC and ASF managers committed to improving internal controls
over PIV equipment inventory.

We recommend the acting senior plant managers, Salt Lake City P&DC and ASF,
continue to ensure that:

1. Employees complete Occupational Safety and Health Administration checklists as
   required.

2. Units certify all of their powered industrial vehicle drivers.

3. Units complete preventive maintenance and powered industrial vehicles repairs on a
   timely basis.

4. Employees follow district procedures on the use of portable electronic devices.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.
Management implemented procedures to ensure that vehicle operators complete OSHA
checklists and certifications to operate vehicles as well as follow district procedures on
the use of portable electronic devices. Management also adjusted preventive
maintenance routes to ensure timely completion of PIV maintenance and repairs. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report.




                                                      2
Internal Controls over Powered Industrial                                  NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility



The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    David E. Williams Jr.
    Frank Neri
    Kenneth S. McArthur
    Corporate Audit and Response Management




                                                      3
Internal Controls over Powered Industrial                                                                                  NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility


                          APPENDIX A: ADDITIONAL INFORMATION
BACKGROUND

We reviewed internal controls over PIVs at the Salt Lake City P&DC and ASF, located
in the Western Area, Salt Lake City District. The map below shows the Western Area
Districts.



          Western Area                           Seattle
               FY 2010
                                                                                  Big Sky


                                           Portland                                                   Dakotas
                                                                                                                       Northland




                                                                                                                         Hawkeye
                                                                 Salt Lake City
                                             Nevada-Sierra                         Colorado/Wyoming
                                                                                                      Central Plains




                               Alaska                                                                                     Mid-America



                                                             Arizona




The Salt Lake City P&DC processed 1,361,983,563 first handling pieces (FHPs) and
used 678,329 Function 1 workhours inFY 2009. The Salt Lake City ASF processed
34,689,674 FHPs and used 297,673 Function 1 workhours in FY 2009. In FY 2009,
management assigned the Salt Lake City ASF a separate finance number. For the
purpose of this audit, we have combined the workhours and volumes for the two
facilities. The Postal Service owns both facilities.

The Salt Lake City P&DC and ASF did not have an automated monitoring system, such
as the Powered Industrial Vehicle Management System (PIVMS). The PIVMS consists
of intelligent wireless devices installed on PIV and client-server software for access
control, utilization analysis, real-time location tracking, and many other functions. As of
October 2009, the Postal Service had installed PIVMS in 66 P&DCs. Over 160 P&DCs
did not have this system, and managed PIV operations through other means.

OSHA regularly inspects Postal Service facilities. In FY 2009, OSHA conducted nearly
190 inspections of postal facilities. Since January 2010, OSHA has fined the Postal
Service more than $4.6 million. Most of the fines resulted from electrical hazards such



                                                             4
Internal Controls over Powered Industrial                                                       NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility

as inadequately trained employees performing work without the proper protective
equipment. The largest fines since January 2010 involved willful violations and the
average fine as of September 2, 2010, was $213,505.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether internal controls over PIVs were in place at the
Salt Lake City P&DC and ASF. To conduct this audit, we relied on computer-processed
data maintained by Postal Service Operational Systems, which included the Web-based
Complement Information System, the Enterprise Data Warehouse system, and the
Maintenance Activity Reporting and Scheduling System (eMARS). We did not test the
validity of controls over these systems. However, we checked the accuracy of the data
by confirming our analysis and results with Postal Service managers and found that the
data was sufficiently reliable.

We conducted this performance audit from July through November 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on September 28, 2010, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We issued one prior audit report addressing mail processing internal controls at the
Dallas Bulk Mail Center.3 The audit found internal controls were generally in place and
effective. However, controls over mail reporting, timekeeping, color coding, and
preventive maintenance required strengthening.




3
 Mail Processing Internal Controls at the Dallas Bulk Mail Center, (Report Number NO-AR-06-009 dated September
28, 2006).




                                                      5
Internal Controls over Powered Industrial                                                           NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility


                                APPENDIX B: DETAILED ANALYSIS

Tow and Forklift Workhour Trends

We found that the Salt Lake City P&DC and ASF were able to effectively manage
workhours in tow and forklift operations. We analyzed FHP productivity, overtime trends
in mail processing operations (referred to as Function 1) and in tow and forklift
operations, and the percentages of Function 1 hours used in tow and forklift operations
for FYs 2007 through 2009.

From FY 2007 to 2009, FHP volume decreased by more than 8 percent, while
workhours used in mail processing decreased by almost 15 percent. Consequently,
productivity improved by 7.54 percent. Salt Lake City P&DC and ASF productivity in
FY 2009 was one of the highest in the country at 1,431 pieces per hour, compared to
the national average of 789 pieces per hour. In addition, mail processing overtime at the
Salt Lake City P&DC and ASF decreased from over 13 percent to almost 5 percent from
FY 2007 to 2009.

The Salt Lake City P&DC and ASF used 6.28 percent of mail processing workhours in
tow and forklift operations in FY 2009 compared to the national average of 6.86 percent.
Management decreased workhours used in tow and forklift operations by 15,406
workhours (or approximately 20 percent) from FY 2007 to 2009. Nationally, workhours
in these operations decreased 15.65 percent.

Management at the Salt Lake City P&DC and ASF controlled workhours used in tow
and forklift operations by evaluating equipment operator staffing levels and productivity.
In addition, Salt Lake City P&DC management used a tray management system (TMS)4
which reduced the number of PIVs needed for operations (see Illustration 1).




4
 The TMS is a transportation and information system that automates the movement of trays of mail within a plant.
The TMS reduces tow and forklift workhours by inducting incoming mail trays directly from the docks to mail
processing equipment.




                                                         6
Internal Controls over Powered Industrial                                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility




    Illustration 1: TMS at the Salt Lake City P&DC on July 15, 2010.

Salt Lake City facility management stated that observing employees on the job was their
primary method for evaluating equipment operator staffing levels and productivity.

The President’s Commission on the U.S. Postal Service’s July 31, 2003 report
recommended that the mission of the Postal Service be “. . . to provide high-quality,
essential postal services to all persons and communities by the most cost-effective and
efficient means possible at affordable and, where appropriate, uniform rates.” Title 39
U.S.C. Part 1, Chapter 4, § 403, states, “The Postal Service shall plan, develop,
promote, and provide adequate and efficient postal services at fair and reasonable rates
and fees.”

The Postal Accountability Enhancement Act of December 2006, P.L. 109-435, Title II
dated December 20, 2006, indicates “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

Internal Controls over PIVs at the Salt Lake City P&DC and ASF

We found that the Salt Lake City P&DC and ASF did not always manage controls over
PIV safety and maintenance.

Safety

Management did not always ensure that only certified PIV drivers operated vehicles.
OSHA standards require that employers certify that each operator has received training
and evaluate each operator at least once every 3 years. Additionally, the standards
require employers to evaluate operators’ performance and determine whether they are
competent to operate a powered industrial truck safely.




                                                      7
Internal Controls over Powered Industrial                                       NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility

In November 2008, OSHA cited the Salt Lake City P&DC for allowing uncertified drivers
to operate PIVs. OSHA found that management “…did not ensure all forklift operators
were properly trained in operation of powered industrial trucks,” but did not assess any
fines or penalties with the citation. Management responded to the citation on November
25, 2008, stating they had corrected the violation. However, we found that from March
28 through June 5, 2010, 42 percent of the vehicle drivers (28 of the 66) at the Salt
Lake City P&DC and ASF were uncertified. During the audit, management certified all of
these employees.

In addition, Salt Lake City P&DC and ASF managers did not always ensure that PIVs
were operated safely. For example:

       OSHA standards require a daily pre-shift inspection of PIVs and completion of a
        checklist. Management at both facilities stated they did not require daily
        completion of the checklist. During our audit, management implemented
        procedures to ensure that PIV drivers completed OSHA checklists daily.

       We observed a PIV operator wearing headphones while driving a vehicle, which
        is prohibited by the Salt Lake City District policy on portable electronic devices.
        We brought this to management’s attention and they had the driver remove the
        headphones (see Illustration 2).




        Illustration 2: We observed a PIV operator at the Salt Lake City P&DC driving
        a forklift while wearing a portable electronic device on


The Strategic Transformation Plan 2006 to 2010 states, “Perhaps the greatest
investment the Postal Service can make for employees is maintaining a safe work




                                                      8
Internal Controls over Powered Industrial                                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility

environment — making sure they return home to their families each day the same way
they came in to work.” In addition, the plan says, “The Postal Service is subject to the
reporting requirements of the Occupational Safety and Health Administration and
follows the required criteria and reporting methodology. Providing a safe workplace is a
demonstration of the commitment the Postal Service has to its employees.”

Maintenance

Although management monitored vehicle battery usage, they did not always perform
preventive maintenance as required or repair vehicles at the Salt Lake City P&DC and
ASF when necessary.

       Management did not routinely follow up to ensure that maintenance employees
        performed all required preventive maintenance on PIVs. We took a random
        sample of all preventive maintenance records for five of the 31 vehicles at the
        Salt Lake City P&DC from July 15, 2009 through July 15, 2010. As an example,
        we found that maintenance employees did preventive maintenance on one tow
        motor only 11 times during the year instead of the required 52 times.

       Management did not always ensure that maintenance repaired vehicles when
        necessary. For example, management removed one vehicle (tow motor B-19)
        from service on             because the brakes were not functioning properly
        (see Illustration 3).




        Illustration 3: The yellow tag on tow motor B-19 indicated that the brakes
        required repair on




                                                      9
Internal Controls over Powered Industrial                                 NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility

On August 10, 2010, we found that the vehicle (tow motor B-19) was back in service
although maintenance had performed no repair work. We brought this to management’s
attention and they immediately removed the vehicle from the workroom floor and issued
a new work order to repair the brakes.




                                                     10
Internal Controls over Powered Industrial                             NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility


                                        APPENDIX C: OTHER IMPACT5

The Postal Service is at risk


                                                    Assets at Risk

                                   Issues at Salt Lake City




                                                 Total $210,000




5
    Assets at risk of loss because of inadequate internal controls.
6




                                                             11
Internal Controls over Powered Industrial                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility



                         APPENDIX D: MANAGEMENT’S COMMENTS




                                                     12
Internal Controls over Powered Industrial                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility




                                                     13
Internal Controls over Powered Industrial                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility




                                                     14
Internal Controls over Powered Industrial                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility




                                                     15
Internal Controls over Powered Industrial                     NO-AR-11-003
 Vehicles at the Salt Lake City Processing and Distribution
 Center and Salt Lake City Auxiliary Service Facility




                                                     16
